            Office of Audits
      FY 2012 Performance Plan




U.S. Department of State and Broadcasting
           Board of Governors
       Office of Inspector General
Table of Contents

Message From the Assistant Inspector General for Audits ................... 1

Introduction .................................................................................................. 1

Our Mission, Vision, and Core Values ..................................................... 2
Our Statutory Responsibilities ................................................................... 3
Our Organization ......................................................................................... 3
Our Stakeholders ......................................................................................... 4
Our General Means and Strategies ............................................................ 5
Our Strategic Goals, Strategies, and Performance Indicators ............... 6
Our Methodology for Investing Resources ............................................. 9

Our Fiscal Year 2012 Performance Plan.................................................. 14

Audits Directorate
  Contracts and Grants ............................................................................ 14
  Financial Management ......................................................................... 15
  Human Capital and Infrastructure ..................................................... 18
  Information Technology ...................................................................... 18
  International Programs ........................................................................ 20
  Security and Intelligence ...................................................................... 21

Middle East Region Operations Directorate
 Iraq ........................................................................................................... 22
 Afghanistan ............................................................................................. 23
 Pakistan ................................................................................................... 23
 Other Reviews ........................................................................................ 24
Message From the Assistant Inspector General for Audits
I am pleased to present the Office of Audits performance plan for fiscal year (FY) 2012.
Since the development of our last strategic plan, the Office of Audits has reorganized to
welcome the addition of the Middle East Region Operations (MERO) Directorate and to
better align our oversight efforts with the Department’s growing global mission and
strategic priorities. This strategic performance plan sets forth our pathway to promote
positive change, maximize efficiency and value in our work, and lead by example in
creating a model organization within the Office of Inspector General (OIG) and the
Department of State (Department). It further provides the means and strategies by
which we will achieve these priorities and the standards by which we will measure our
success. This is an evolving document, which will be updated as necessary to ensure
that our work remains relevant, timely, and responsive to global developments and the
priorities of the foreign affairs community. I want to express my gratitude to all the
staff who have assisted in the development of this plan and my profound appreciation
to those who will implement it.

Evelyn R. Klemstine, Assistant Inspector General, June 2011



Introduction

The Office of Audits has a leading role in helping
the Department, the Broadcasting Board of
Governors (BBG), and the United States                       “OIG is at one of those
International Boundary and Water Commission                  moments where many reports
                                                             are being completed.
(IBWC), improve management; strengthen integrity
                                                             Inevitably, several of these
and accountability; and ensure the most efficient,
                                                             reports will be controversial.
effective, and economical use of resources. Our              We will be attacked for a
activities are global in scope, supporting the highest       variety of perceived failings
priorities of the Department. Our oversight extends          ranging from ignorance, to
to the Department’s and BBG’s 70,000+ employees              partiality and negativity. Our
and more than 275 missions and other facilities              being defensive is never an
worldwide, funded through a combined annual                  option. Being determined to be
                                                             honest and intelligent is the
appropriation of more than $18 billion. We remain
                                                             only option.” — Harold W.
at the forefront of efforts to identify potential            Geisel, Deputy Inspector
savings and cost efficiencies for the Department and         General, July 2010
BBG, and we strive to provide timely, relevant, and
useful feedback on the progress of their programs
and initiatives. Our mandate includes the
traditional areas of emphasis for the Department and BBG—including diplomatic and
consular affairs, security, international broadcasting, administrative and financial
management, and information technology—as well as new initiatives and priorities.


                                                                                              1
Our Mission, Vision, and Core Values

The mission of the Office of Audits is to conduct and direct independent audits and
program evaluations to promote effective management, accountability, and positive
change in the Department, BBG, and the foreign affairs community. We provide
leadership to:

      Promote integrity, efficiency, effectiveness, and economy;
      Prevent and detect waste, fraud, abuse, and mismanagement;
      Identify vulnerabilities and recommend constructive solutions;
      Offer expert assistance to improve Department and BBG operations;
      Communicate timely, useful information that facilitates decision-making and
      achieves measurable gains; and
      Keep the Department, BBG, and the Congress fully and currently informed.

Our vision is to be a world-class organization promoting effective management,
accountability, and positive change in the Department of State, the Broadcasting Board
of Governors, and the foreign affairs community. Our core values are:

  Credibility: We are committed to the highest standards of accountability,
independence, integrity, and professionalism.

  Objectivity: As an independent agent for positive change, our reports and other
products are factual, accurate, informative, and reliable.

  Relevance: Our work is directed at Department and BBG priorities, with an
emphasis on global issues; the effectiveness of foreign assistance programs; resource-
intensive programs and operations; and the Department’s coordination with other U.S.
Government agencies.

   Usefulness: Our products assist decision makers in improving programs and
making the most effective spending decisions in an environment of constrained
financial resources.

  Timeliness: Our audits and evaluations are conducted in a timely manner and are
distributed broadly to ensure recommended actions promptly result in savings, cost
recoveries, prevention of losses, and improved efficiencies and security.




                                                                                         2
Our Statutory Responsibilities

The 1978 Inspector General Act, the 1980 Foreign Service Act, and the 1998 Foreign
Affairs Reform and Restructuring Act charge the OIG with oversight responsibility for
the Department of State and the Broadcasting Board of Governors. These
responsibilities include detecting and preventing waste, fraud, and mismanagement
and assessing whether U.S. foreign policy goals are
being achieved, resources are used to maximum
efficiency, and all elements of U.S. overseas             “As always, integrity, quality,
missions are coordinated. We are also responsible         and thoroughness must be
for evaluating compliance with other legislation—         the hallmark of our work. A
such as the Chief Financial Officers Act, the             report will only be interesting
                                                          if the authors themselves
Federal Managers’ Financial Integrity Act, and the
                                                          are enthusiastic about the
Federal Information Security Management Act—
                                                          product, especially its
designed to enhance management performance.               recommendations. . . It’s
                                                           clear to me that our work is
The Office of Audits follows generally accepted            being thoroughly read by
government auditing standards, as outlined in our          high level decision makers,
Office of Audits Manual. We incorporate applicable         to say nothing of people in
standards into our planning process and, where             Congress and (especially) in
                                                           the media.
appropriate, into the procedures used by others on
our behalf. These standards are designed to set the        Your work keeps getting
tone for the use of professional judgment in               better and better. I’m
performing work on a wide variety of assignments.          delighted with our important
It is our policy to review annually the procedures         and interesting work.” —
and practices we follow and to initiate prompt             Harold W. Geisel, Deputy
                                                           Inspector General, June
action when necessary to ensure compliance with
                                                           2010
governing standards and improve internal
efficiency and effectiveness.

Our Organization

The Office of Audits consists of two Directorates and an audit operations division. The
Deputy Assistant Inspector General for Audits is responsible for the Audits Directorate,
charged with conducting audits and program evaluations of the management and
financial operations of the Department and BBG, including their audited financial
statements, information security, internal operations, and external activities funded by
the Department through contracts or financial assistance. The Deputy Assistant
Inspector General for the MERO Directorate is responsible for performing engagements
within the Middle East Region covering the Bureaus of Near Eastern Affairs (NEA) and
South and Central Asian Affairs (SCA), in addition to the general operation of our
overseas offices located in Cairo, Egypt; Kabul, Afghanistan; Islamabad, Pakistan; and
Baghdad, Iraq. The MERO Directorate is also responsible for coordinating our oversight

                                                                                            3
efforts with the Southwest Asia Planning Group (SWA-JPG) and the Afghanistan and Pakistan
(AF-PAK) subgroup.

The Audit Operations Division reports directly to the Assistant Inspector General for
Audits and is responsible for our quality control operations; coordinating, tracking and
reporting compliance with the recommendations we have offered; performing
workforce planning and analysis; developing and managing our budget; and recruiting,
training, and retaining qualified auditors and analysts.




               Office of Audits
                                Assistant Inspector
                                     General                            Audit Operations
                                                                            Division




     Deputy Assistant                                               Deputy Assistant
    Inspector General/                                             Inspector General/
     Audit Directorate                                             MERO Directorate



         Contracts & Grants
                                                                         Washington DC
                (CG)


             Financial
          Management (FM)
                                                                               Cairo, Egypt


          Human Capital &
         Infrastructure (HCI)
                                                                            Kabul, Afghanistan


             Information
           Technology (IT)                                                      Islamabad,
                                                                                 Pakistan


            International
           Programs (IP)
                                                                              Baghdad, Iraq


              Security &
           Intelligence (SI)




Our Stakeholders

Our products are directed to and used by a wide range of public and private sector
entities to include the Congress; the Secretary of State and other Department officials,
managers, and staff; the Board of BBG and BBG management and staff; the Council of

                                                                                                 4
Inspectors General on Integrity and Efficiency; other U.S. Government agencies; and
members of the general public – especially the U.S. taxpayer. We continually seek input
from our stakeholders in planning our work to accommodate special requests received
outside of the planning process, and we welcome feedback on our products, processes,
and services.

Our General Means and Strategies

The fundamental means for the Office of Audits to achieve its strategic and
performance goals will be the audits and program evaluations we perform and direct.
In addition to fulfilling mandatory requirements and responding to requests, we strive
to react to the priorities and demands of the foreign affairs community and proactively
review new programs and potential problem areas identified in the course of our work.
We direct the work of select Certified Public Accounting firms to augment our
oversight efforts within the Department and BBG. We work closely with our colleagues
in the Offices of Inspections and Investigations to build expert knowledge of the
Department’s operations; share information to deter, detect, and prosecute fraud; and
develop strategies that advance our oversight mission. We will continue to review and,
as appropriate, revise our processes and methodologies to get the most value from our
resources, better serve our customers and other interested parties, and ensure the
achievement of our strategic and performance goals.

In addition, we will continue to pursue authorization for the personnel authorities and
financial incentives needed to recruit the staff and skill sets needed to fulfill our work
assignments throughout the world, as well as promote professional development of our
staff with a variety of educational and career development opportunities to include
both formal training at high quality institutions and on-the-job experiences internally.

Finally, we will focus discretionary audits and evaluations on high priority areas to help
decision makers within the Department, BBG, and the Congress manage scarce financial
resources. In planning our audits and evaluations, we will target high-cost programs,
key management challenges, and vital operations to provide Department and BBG
managers with information that will assist them in making operational decisions. Our
FY 2012 plan recognizes the Department’s High Priority Performance Goals to include
Global Security, Global Health, Climate Change, Management-Building-Civilian
Capacity, and Overseas Contingency Operations in the front-line states of Iraq,
Afghanistan, and Pakistan.




                                                                                         5
Our Strategic Goals, Strategies, and Performance Indicators

Goal One: Positive Change

Support and assist the Department and BBG in strengthening management and consular
capabilities and program effectiveness.

Strategies

          audits and evaluations address issues of concern to our stakeholders, and
periodically reassess areas of emphasis to reflect changing priorities of the
Administration, Congress, the Department, and BBG.

           n informed risk management approach to identify mission-critical systems
and operations, major management challenges, potential vulnerabilities, and priority
areas for evaluation.

          our audits, evaluations, and compliance followup reviews, assess
Department and BBG progress in correcting identified management control
weaknesses.

                   issues and best practices found in the course of individual audits
and evaluations, and recommend global solutions to strengthen Department and BBG
management and programs.

         integrated, multifunctional teams of auditors, evaluators, information
technology specialists, and security professionals to leverage OIG resources in
addressing high priority work.

Performance Indicators

1-1. Percentage of recommendations resolved within nine months.

Recommendations are the primary outputs of our audits and program evaluations, and
they serve as the vehicle for correcting vulnerabilities and realizing positive change in
the Department and BBG. Resolution of recommendations reflects management’s
willingness to take the actions we recommended to correct identified problems and
improve programs and operations. The percentage of recommendations resolved
within nine months for audits and evaluations indicates to what extent management
has agreed to take timely action to correct identified problems in line with our
recommendations or has identified acceptable alternatives that are expected to result in
improved programs and operations. Our FY 2012 target is 86 percent.



                                                                                        6
1-2. Percentage of OIG reports that focus on Department and BBG management
challenges.

Our audits and program evaluations assess Department and BBG efforts to achieve
results-oriented management, identify major management challenges, and recommend
improvements. The percentage of our work related to agency management challenges
demonstrates the degree to which we are focused on improving the areas of greatest
vulnerability in agency operations. Our FY 2012 target is 96 percent.

Goal Two: Efficiency and Value

Produce timely, quality work and products with relevant, credible, reliable information that is
useful to Department, BBG, and Congressional decision makers, particularly in managing
resources.

Strategies

  Perform risk assessments when planning audits and evaluations to identify
opportunities for cost savings and the avoidance of costs.

  Review and recommend internal control improvements in programs and functions of
the Department and BBG that are vulnerable to misappropriation, loss, or waste of
resources.

                                  , and effectiveness of interagency program support
services, including whether the most cost-effective means are used in providing services
to foreign affairs agencies overseas.

  Maintain internal quality assurance and review programs to ensure reliability and
credibility of Office of Audits products.

  Maintain transparency in conducting and reporting the results of audits and
evaluations.

  Maximize the use of appropriate technologies to start jobs sooner, finish them
quicker, disseminate the results broadly, and facilitate the storage and retrieval of
reports.

Performance Indicator

2-1. Monetary benefits: questioned costs, funds put to better use, cost savings, and
efficiencies.



                                                                                                  7
Our audits and evaluations result in potential and actual cost savings and efficiencies to
the Department and BBG. Monetary benefits from our work result in more effective
and efficient use of U.S. taxpayer dollars and are a primary mandate of the Office of
Audits. Our FY 2012 target is $16 million.

Goal Three: People
Lead by example in providing a model work environment that facilitates timely, quality work
and products.

Strategies

  Focus recruitment efforts on requisite skill sets and individuals who possess the
knowledge, skills, and abilities to masterfully perform audits and evaluations.

  Encourage all employees to complete Individual Development Plans, ensure that all
employees fulfill mandatory training requirements, and support employees in their
pursuit of developmental training.


certifications, such as the designation of Certified Public Accountant, Certified Internal
Auditor, and Certified Information Systems Auditor.


employees in producing quality and timely products.

Performance Indicator

3-1. Annual rate of attrition for Civil Service employees.

Office of Audits products and services are possible only through its people. Our
success is predicated on attracting and retaining highly qualified employees with
functional and/or subject-matter expertise in auditing, program evaluation, foreign
policy, information technology, security, and public diplomacy. Employee retention is
measured in terms of annual attrition of Civil Service employees. Since FY 2010, the
Office of Audits has successfully recruited and hired 15 employees to fill vacant
positions. Our goal in FY 2012 is to fill all of our authorized positions, which will
further enable us to complete global assessments of high-cost, strategically significant
Department and BBG programs and management challenges; emerging initiatives,
priorities; and areas of Congressional interest.




                                                                                              8
Our Methodology for Investing Resources

The methodology we use to guide the investment of our resources is predicated on the
performance goals and strategies noted above and four additional factors: (1)
Congressional and executive mandated audits, (2) the Department’s High Priority
Performance Goals and management challenges for FY 2012, (3) dedicated funding
levels and potential risks, and (4) holistic audit attention to all bureaus and offices
charged with advancing the Department’s and BBG’s mission.

Mandated Assignments

The Office of Audits currently has 15 Congressional and executive mandated
assignments. These assignments are generally conducted annually, and many relate to
financial management and information technology security requirements stemming
from the Government Management Reform Act (GMRA) and the Federal Information
Security Management Act (FISMA). A listing of mandatory assignments and the
division responsible for conducting them follows:

   1. Financial Statement Audit of the Department of State [Financial Management Division]
   2. Financial Statement Audit of the Broadcasting Board of Governors [Financial
       Management Division]
   3. Financial Statement Audit of the Foreign Service Retirement and Disability Fund
       [Financial Management Division]
   4. Financial Statement Audit of the International Boundary and Water Commission
       [Financial Management Division]
   5. Financial Statement Audit of the International Cooperative Administrative Support
       Services [Financial Management Division]
   6. FISMA Evaluation of the Department of State’s Information Security Program
       [Information Technology Division]
   7. FISMA Evaluation of the Broadcasting Board of Governors Information Security
       Program [Information Technology Division]
   8. FISMA Evaluation of the Intelligence Community’s Information Security Program
       [Information Technology Division]
   9. Annual Attestation of the Department of State Bureau of International Narcotics and
       Law Enforcement Affairs Drug Control Funds and Related Performance Report
       [Financial Management Division]
   10. Performance Reports for the Office of National Drug Control Policy (ONDCP)
       [Financial Management Division]
   11. OMB Circular A-133 Quality Control Review of Single Audits [Contracts and Grants
       Division]
   12. OMB Circular A-133 – Single Audit Act Initial (Desk) Reviews [Audit Operations
       Division]
   13. Audit of the National Endowment for Democracy [Contracts and Grants Division]
                                                                                             9
    14. Audit of Expenditures Made Under the Emergencies in the Diplomatic and Consular
        Services Appropriation (K-Fund) [Financial Management Division]
    15. Audit of Department of State Compliance With Trafficking Victims Protection
        Reauthorization Act of 2008 [International Programs Division]

Priorities of the Department of State and BBG

We organized the Department’s top priorities to align with the themes of the
Quadrennial Diplomacy and Development Review (QDDR). The QDDR is intended to
offer guidance on how the Department can work better and smarter by setting clear
foreign affairs priorities, manage for results, promote accountability, and unify efforts
to ensure the effective execution of solutions. Figure 1 depicts the four QDDR themes
and our associated placement of High Performance Goals within each: the
Department’s High Priority Performance Goals,1 State & USAID Strategic Plan, and
Government Accountability Office (GAO) High Risk. Our investment of resource also
recognizes Strategic Communications and Technology employed by BBG.




     ―I have made the QDDR one of our highest priorities. Just as every business must get the most out
     of every dollar from its investors, State and USAID have to get the most out of every dollar from
     the American taxpayers; we also have to look ahead, planning for a changing world. It’s
     ultimately about delivering results for the American people—protecting our interests and
     projecting our leadership in the 21st century.

     As President Obama observed this year in his National Security Strategy, ―We live in a time of
     sweeping change.‖ New actors, good and bad, have the power to shape international affairs like
     never before. The challenges we face—nuclear proliferation, global pandemics, climate change,
     terrorism—are more complex than ever.

     It’s not enough simply to keep up with all of this change. We must stay ahead of it. To that end,
     we will build up our civilian power: the combined force of civilians working together across the
     U.S. government to practice diplomacy, carry out development projects, and prevent and respond
     to crises. Many different agencies contribute to these efforts today. But their work can be more
     unified, more focused, and more efficient.‖

                                                                Hillary Rodham Clinton
                                                                Secretary of State
                                                                December 2010




1
 Source: Office of Management and Budget, FY 2012 Department of State and USAID High Priority
Performance Goals.

                                                                                                         10
 Figure 1

     QDDR Themes: Leading                    High Priority Performance Goals,                   Lead
      Through Civilian Power                  State & USAID Strategic Plan,                   Bureaus/
                                                     GAO High Risk                             Offices
1.   Diplomacy for the 21st Century         Global Health                                   S/GAC
                                            Addressing HIV/AIDS Challenges                  USG= $63B
Leading the implementation of global        Promote Economic Growth and Prosperity          over 6 yrs.
civilian operations,                        Promote International Understanding
Adapting U.S. diplomacy to meet new         Provide Humanitarian Assistance                 ISN
challenges,                                 Global Security-Nuclear Nonproliferation
Engaging beyond the State, and              Strategic Communications and Technology (BBG)
Supporting our diplomats as they take                                                        S/SECC
                                            Climate Change
on new missions.                                                                             USG= $30 B
                                            Afghanistan and Pakistan
                                                                                             over 3 yrs.
                                            Iraq
                                                                                             Overseas
                                                                                             Contingency
                                                                                             Operations
                                                                                             (OCO) State
                                                                                             $4.368B

2.   Transforming Development to            Democracy, Good Governance, and Human           DRL
     Deliver Results                         Rights
                                            Govern Justly and Democratically
Focusing our investments,                   Invest in People
Practice High-Impact Development,           Sustaining Counternarcotics Activities
Rebuilding USAID as the preeminent          Enhancing Democracy & Human Rights
global development institution, and         Reforming United Nations Management
Transforming the Department’s               Implementing Millennium Challenge
support for development.                     Compacts
                                            Fostering Public Diplomacy & International
                                             Broadcasting

3.   Preventing and Responding to            Food Security                                  S/P
     Crises and Conflicts                   Achieve Peace and Security                      State = $3.5B
                                             (Counterterrorism)                              over 3 yrs.
Embracing and executing conflict            Maximizing Humanitarian Assistance
prevention and response as a core            Activities                                      2,000 member
civilian mission and                        Stabilizing Regional Conflicts                  Civilian
Building capability to reform security                                                       Reserve Corps
and justice sectors

4.   Working Smarter                        Management-Building Civilian Capacity           HR/RMA
                                            Strengthen Consular and Management              25% Increase
Building a 21st Century Workforce,           Capabilities                                    in FSOs by
Managing contracting and                    Strengthening Visa & Passport Operations        2014
procurement better to achieve our           Addressing Staffing Challenges
missions, and
Planning and budgeting for results.




                                                                                                             11
Funding Levels and Potential Risks

Figure 2 depicts the Department’s High Priority Performance Goals, along with
additional information relating to the bureaus and offices charged with advancing the
performance goals, the approximate funding associated with each, and some of the
related programs used to implement them.

Figure 2
      OMB High            Lead         FY12 State
     Priority Goals      Bureaus     Budget Request            Select Programs to Advance Priorities
      Global Health     S/GAC,      $5.641 billion     $4.2 billion HIV/AIDS prevention, care, and treatment
                         OES,                           and other health-systems-strengthening programs in
                         S/GWI                          PEPFAR-supported countries.

                         ISN, PM,                       $69 million Global Threat Reduction Program,, $60.9
      Global Security   VCI, INL,   $8.2 billion       million Export Control and Related Border Security
                                     (International     Program, $192.7 million Anti-Terrorism Assistance
                         S/CT
                                     Security           Program, $1.5 billion International Narcotics Control
                                     Assistance)        and Law Enforcement, and $60.7 million Inter-regional
                                                        Aviation Support.

      Climate                       $1.042 billion     $452 million Global Climate Change Development
                         S/SECC
       Change            OES, EEB                       Assistance and $590 million for Clean Technology Fund
                                                        and the Strategic Climate Fund.

                         BBG
      BBG                           $754 million       $754 million for International Broadcasting Operations
                                                        to include VOA, MBN, RFE/RL, and RFA.

      Afghanistan       S/SRAP,     $4.368 billion     $1.2 billion Economic Support Fund for Afghanistan,
       Pakistan         DRL, INL,   Overseas           $3.2 billion Diplomatic and Consular Programs for Iraq,
      Iraq              NEA,        Contingency        and $246 million Worldwide Security Protection.
                         OBO, DRL    Operations (OCO)

      Democracy,        DRL,        $4 billion         $20.8 million Office to Monitor and Combat Trafficking
       Good              S/GWI,                         in Persons, $31.3 million International Law
       Governance,       G/TIP,                         Enforcement Academy (ILEA), and $60.7 million Inter-
       and Human         EEB, INL,                      regional Aviation Support Human Rights Democracy
       Rights            OES, F                         Fund.


      Food Security     S/P, RM,    $1.1 billion       $911.9 million Feed the Future (USAID).
                         EEB,OES     (USAID + State)

                         S/GAC
      Management-       HR/RMA,     $92.2 million      $92.2 million Conflict Stabilization Operations
       Building          S/CRS,
       Civilian          INL, PM,
       Capacity          S/CT




                                                                                                             12
Holistic Audit Attention

In FY 2012, we are initiating oversight activities in a number of bureaus that are integral
to advancing the Department’s high priority performance goals to include the Bureau of
Human Resources (HR); the Bureau of Overseas Buildings Operations (OBO); the Office
of the Coordinator for Reconstruction and Stabilization (S/CRS); the Bureau of
International Security and Nonproliferation (ISN); and the Bureau of Economic, Energy,
and Business Affairs (EEB). This focus reflects our desire to add value to the
Department’s mission while meeting the demands of the Congress and foreign affairs
community to proactively review new programs and deter waste, fraud, and
mismanagement. Figure 3 depicts the goal framework that links Department-wide
goals to bureau and mission level goals, programs and performance information. Our
holistic oversight approach corresponds with this goal framework, as well as the
Department’s mission in the front-line states of Iraq, Afghanistan, and Pakistan.

Figure 3




Source: U.S. Department of State Fiscal Year 2010 Agency Financial Report.




                                                                                        13
Our Fiscal Year 2012 Performance Plan

Audits Directorate

Contracts and Grants
Bureau/OIG                                        Primary                                     Initiate
                Engagement Title                                             Justification
Division                                          Objective                                  Month/Year

A, RM, PM,   Audit of Department of State’s    To determine the              Program Risk       June
BBG/CG       and BBG’s Contractor              efficacy of the                                  2011
             Suspension and Debarment
                                               Department’s and BBG’s
             Process (Carryover)
                                               contractor suspension
                                               and debarment process.


                                              To determine whether
             Audit of Select Fulbright
                                              select Fulbright
             Commissions in the Bureaus
                                              Commissions in EAP,
EAP, NEA,    of East Asian and Pacific
                                              NEA, and SCA are                                  August
SCA, and     Affairs (EAP), Near Eastern                                     Program Risk
                                              complying with the terms                           2011
ECA /CG      Affairs (NEA), and South
                                              and conditions of grant
             and Central Asian Affairs.
                                              regulations and
             (Carryover)
                                              agreements.

                                              Pursuant to the requirements
                                              of OMB Circular A-133, to
              Quality Control Review of
DOS,                                          provide selected Single
             OMB Circular A-133 –
BBG/AO,                                       Audit Act Desk Reviews          Mandatory        October
             Single Audit Act Initial
and CG                                        that can identify questioned                      2011
             (Desk) Reviews
                                              costs for repayment to the
                                              Department and BBG.



                                              To determine whether select
                                              grantee organizations
              Audit of Select Grants for      receiving $700 million in
Bureaus of    the Overseas Refugee            Department grants for
                                                                                               February
NEA, SCA,     Assistance Program in the       Overseas Refugee                Program Risk
                                                                                                 2012
PRM/CG        Middle East and South Asia      Assistance Programs in the
                                              Middle East and South Asia
                                              are complying with grant
                                              terms and conditions.

                                              To determine whether
             Audit of Contracts for Major     construction contractors for
Bureaus of   Overseas U. S. Embassy           select major overseas
                                                                                                March
OBO and      Construction Projects During     embassy construction            Program Risk
                                                                                                2012
A/CG         FYs 2011-2012                    projects are complying with
                                              Federal procurement
                                              regulations.



                                                                                                    14
Financial Management
Bureau/OIG                              Primary                                    Initiate
Division     Audit Title                Objective                 Justification   Month/Year

                                      To determine whether
                                      the financial statements
             Audit of the             and related notes are
             Department’s FY          presented fairly, in all
                                                                                    January
DOS/FM       2011 Financial           material respects, in        Mandatory
                                                                                      2011
             Statements               conformity with the
             (Carryover)              accounting principles
                                      generally accepted in the
                                      United States.


                                      To determine whether
                                      the financial statements
                                      and related notes are
             Audit of BBG’s FY
                                      presented fairly, in all
             2011 Financial                                                         January
BBG/FM                                material respects, in        Mandatory
             Statements                                                               2011
                                      conformity with the
             (Carryover)
                                      accounting principles
                                      generally accepted in the
                                      United States.



                                      To determine whether
                                      the financial statements
             Audit of Foreign
                                      and related notes are
             Service Retirement
                                      presented fairly, in all
RM and       and Disability Fund’s                                                  March
                                      material respects, in        Mandatory
HR/FM        (FSRDF) FY 2010                                                        2011
                                      conformity with the
             Financial Statements
                                      accounting principles
             (Carryover)
                                      generally accepted in the
                                      United States.



                                      To determine whether
                                      the financial statements
             Audit of International
                                      and related notes are
             Boundary and Water
                                      presented fairly, in all
             Commission’s                                                            July
IBWC/FM                               material respects, in        Mandatory
             (IBWC) FY 2011           conformity with the
                                                                                     2011
             Financial Statements
                                      accounting principles
             (Carryover)
                                      generally accepted in the
                                      United States.




                                                                                          15
Bureau/OIG                                  Primary                                    Initiate
Division        Audit Title                 Objective                 Justification   Month/Year

                                        To determine to what
             Audit of the               extent MRV fees collected     Program Risk       July
                                        by the Department are
CA, RM/      Department’s Use of                                                         2011
                                        expended in accordance
FM           Machine Readable Visa      with Department
             (MRV) Fees                 guidelines and mission
                                        priorities.


                                        To determine whether the
             Compliance with the        Department is in
             Improper Payments          compliance with the                            November
DOS/FM                                                                 Mandatory
             Improvement Act, as        Improper Payments                                2011
             amended                    Improvement Act, as
                                        amended.



                                        To determine whether
             Compliance with the
                                        BBG is in compliance
             Improper Payments                                                         November
BBG/FM                                  with the Improper              Mandatory
             Improvement Act, as                                                         2011
                                        Payments Improvement
             amended
                                        Act, as amended.



             Review of DOS FY
             2011 Accounting and        To authenticate the            Mandatory       December
             Authentication of Drug     Department’s FY 2011                             2011
INL and      Control Funds and          accounting of drug control
RM/FM        Related Performance        funds and related
             Report for the Office of   performance in compliance
             National Drug Control      with ONDCP guidance.
             Policy (ONDCP)



                                        To determine whether the
                                        financial statements and
                                        related notes are presented
             Audit of the
                                        fairly, in all material                         January
DOS/FM       Department’s FY 2012                                      Mandatory
                                        respects, in conformity                           2012
             Financial Statements
                                        with the accounting
                                        principles generally
                                        accepted in the United
                                        States.




                                                                                                16
Bureau/OIG                                 Primary                                    Initiate
Division       Audit Title                 Objective                 Justification   Month/Year

                                         To determine whether
                                         the financial statements
                                         and related notes are
             Audit of BBG’s FY           presented fairly, in all
                                                                                       January
BBG/FM       2012 Financial              material respects, in        Mandatory
                                                                                         2012
             Statements                  conformity with the
                                         accounting principles
                                         generally accepted in the
                                         United States.

                                         To determine whether
                                         the surcharge related to
                                         acquisitions has
             Audit of the Department’s   improved the efficiency
             Surcharge for Procurement                                                February
A/FM                                     and effectiveness of        Program risk
             Assistance From the                                                        2012
             Bureau of Administration    acquisition management
                                         and improved customer
                                         service.


                                         To determine whether
                                         the financial statements
             Audit of Foreign Service
                                         and related notes are
             Retirement and
                                         presented fairly, in all
RM and       Disability Fund’s                                                         March
                                         material respects, in        Mandatory
HR/FM        (FSRDF) FY                                                                2012
                                         conformity with the
             2011Financial
                                         accounting principles
             Statements
                                         generally accepted in the
                                         United States.


                                         To determine whether
                                         the financial statements
             Audit of International      and related notes are
             Boundary and Water          presented fairly, in all
                                                                                        July
IBWC/FM      Commission’s (IBWC)         material respects, in        Mandatory
                                                                                        2012
             FY 2011 Financial           conformity with the
             Statements                  accounting principles
                                         generally accepted in the
                                         United States.




                                                                                             17
Human Capital and Infrastructure
 Bureau/OIG                                          Primary                                         Initiate
 Division           Engagement Title                 Objective                   Justification      Month/Year

                                               To determine to what
                Audit of the Department’s
                                               extent the Department’s
                Performance in Promoting
                                               employee drug-testing                                     June
 HR,MED /HCI    and Ensuring a Drug-Free                                         Program Risk
                                               program meets Federal                                     2011
                Workforce
                                               and Department goals and
                (Carryover)
                                               industry benchmarks.


                                               To determine to what extent
                Audit of the Department’s
                                               the Department’s efforts to
                Efforts to Recruit and
                                               recruit and retain staff with       High Priority      September
 HR/HCI         Retain Highly Skilled
                                               specific knowledge, skills        Performance Goal       2011
                Personnel
                                               and abilities have been
                (Carryover)
                                               effective.


                Audit of the Department’s
                                               To determine the efficacy of
                Process To Discontinue
                                               the Department’s process to                            November
 HR /HCI        Payroll Actions for                                               Program Risk
                                               timely remove separated                                  2011
                Separated Employees
                                               employees from the payroll.




                                               To determine to what extent
                                               the Department’s efforts to
                Audit of the Department’s                                          High Priority         April
 OBO /HCI                                      ―Go Green‖ are meeting
                Efforts to ―Go Green‖                                            Performance Goal        2012
                                               Federal and Department
                                               goals and objectives.



                                               To determine to what extent
                                               the Department has
 S/CRS, HR,     Audit of the Department’s
                                               recruited, developed, trained,      High Priority        August
 INL, PM,       Progress in Staffing the
                                               and equipped a 4,250 -            Performance Goal        2012
 CT//HCI        Civilian Response Corps
                                               person Civilian Response
                                               Corps.




Information Technology
 Bureau/OIG                                           Primary                                          Initiate
 Division            Engagement Title                 Objective                   Justification       Month/Year
                                               To determine the
                Audit of Department of State   effectiveness of logical access
 RM, DS, IRM,   Access Controls for                                                                    August
                                               controls pertaining to user        Program Risk
 CA, A, HR/IT   Information Systems                                                                     2011
                (Carryover)                    access to applications and
                                               associated databases.


                                                                                                           18
Bureau/OIG                                         Primary                                     Initiate
Division         Engagement Title                  Objective                  Justification   Month/Year



                                            To determine whether the
             Audit of Department of State   Department has instituted
                                                                                               October
IRM/IT       Data Center Security and       security controls that are        Program Risk
                                                                                                2011
             Consolidation                  appropriate to its data centers
                                            and is progressing with data
                                            center consolidation.

                                            To determine the
                                            effectiveness of security
             Review of the Information      controls and techniques for
DOS/IT       Security Program at the        selected information systems       Mandatory       February
             Department of State            and compliance with Federal                          2012
                                            Information Security
                                            Management Act (FISMA)
                                            and related information
                                            security policies, procedures,
                                            standards, and guidelines.


                                            To determine the
                                            effectiveness of security
             Review of the Information      controls and techniques for
             Security Program for           SCI systems and compliance
             Sensitive Compartmented        by the Department’s                                February
DS,INR/IT                                                                      Mandatory
             Information (SCI) Systems      Intelligence Community with                          2012
             at the Department of State     FISMA and related
                                            information security policies,
                                            procedures, standards, and
                                            guidelines.


                                            To determine the
                                            effectiveness of security
             Review of the Information      controls and techniques for
             Security Program at the        selected information systems
                                                                                               February
BBG/IT       Broadcasting Board of          and BBG compliance with            Mandatory
                                                                                                 2012
             Governors (BBG)                FISMA and related
                                            information security policies,
                                            procedures, standards, and
                                            guidelines.

                                            To determine the
                                            effectiveness of security
                                            controls and techniques for
             Review of the Information
                                            selected information systems
             Security Program at the
                                            and IBWC compliance with                           February
IBWC/IT      International Boundary and                                        Mandatory
                                            FISMA and related                                    2012
             Water Commission (IBWC)
                                            information security policies,
                                            procedures, standards, and
                                            guidelines.


                                                                                                   19
 Bureau/OIG                                        Primary                                           Initiate
 Division         Engagement Title                 Objective                   Justification        Month/Year

                                             To determine whether the
                                             Department has securely
              Audit of Department of State   implemented active directory
              Security Controls Over the     services to prevent outside                              March
 IRM/IT                                      cyber attacks and has             Program Risk
              Active Directory Enterprise                                                             2012
              Environments                   implemented effective
                                             security controls through the
                                             enterprise.



                                             To determine to what extent
                                             the Department’s SDLC
              Audit of Department of State   policies and procedures                                  March
 IRM/IT       System Development Life                                          Program Risk
                                             address Federal requirements                             2012
              Cycle (SDLC) Process
                                             and best practices governing
                                             the SDLC process.



                                             To determine to what extent
              Audit of Department of State
                                             the Department has adhered
 IRM, RM,     Information Technology                                                                  June
                                             to requirements for               Program Risk
 A/IT         Vanguard Contract                                                                       2012
                                             outsourcing IT support, as
                                             prescribed by OMB Circular
                                             A-76.



International Programs
 Bureau/OIG                                        Primary                                            Initiate
 Division        Engagement Title                  Objective                   Justification         Month/Year
                                             To determine whether the
              Audit of Department of State   Department has administered
              Administration of Grants for   grants supporting the
              the International Visitor      International Visitor                                      June
 ECA/IP                                                                          Program Risk
              Leadership and Citizen         Leadership and Citizen                                     2011
              Exchange Programs              Exchange Programs in
              (Carryover)                    accordance with applicable
                                             laws and regulations.


                                             To determine to what extent the
              Audit of Department of State
                                             Department is achieving its
              Progress in Achieving its
                                             goals and commitments to the          High Priority       August
 SECC, OES,   Goals and Commitments to
                                             multilateral effort to combat       Performance Goal       2011
 EEB/IP       Combat Climate Change
                                             climate change.
              (Carryover)




                                                                                                         20
 Bureau/OIG                                          Primary                                            Initiate
 Division       Engagement Title                     Objective                         Justification   Month/Year

                                               To determine whether the data
                Audit of Bureau of
                                               used to measure the
                International Narcotics and
                                               Department’s efforts to disrupt
                Law Enforcement Affairs                                                                 February
 INL/IP                                        overseas production of illicit         Program Risk
                (INL) Methodology To                                                                      2012
                                               drugs is accurate and reasonable
                Account for and Report
                                               to evaluate program
                Eradication of Illicit Crops
                                               performance.


                                               To determine to what extent the
                                               Department is fulfilling its
                Audit of Department of State
                                               obligations to oversee, track, and
                Oversight and Reporting of
                                               report contributions to the Global     High Priority
                Donor Contributions to the                                                                April
 GAC/IP                                        Fund in accordance with              Performance Goal
                Global Fund to Fight                                                                      2012
                                               requirements set forth in the U.S.
                HIV/AIDS, Tuberculosis,
                                               Leadership in the Fight Against
                and Malaria
                                               HIV/AIDS, Tuberculosis and
                (Carryover)
                                               Malaria Act of 2008.


                                               To determine whether the
                Audit of Department of State   Department has implemented
                Management and Oversight       internal controls to effectively                        September
 PM,WRA/IP                                     manage and oversee the U.S.            Program Risk
                of the U.S. Humanitarian                                                                 2012
                Mine Action Program            Humanitarian Mine Action
                                               Program.




Security and Intelligence
 Bureau/OIG                                           Primary                                           Initiate
 Division             Engagement Title                Objective                     Justification      Month/Year

                                               To determine whether the
               Audit of Department of State
                                               Department’s process to award
               Process To Award the
                                               the WPS contract and
               Worldwide Protective
                                               subsequent Kabul task order                               March
 A, DS/SI      Services (WPS) Contract and                                            Mandatory
                                               included required procedures to                           2011
               Kabul Embassy Security
                                               assess contractor responsibility,
               Force Task Order
                                               past performance, and technical
               (Carryover)
                                               merit.

                                               To determine whether the
               Audit of Department of State    Department has implemented
 T,ISN,        Administration of               internal controls to effectively       High Priority      October
 CTR/SI        Nonproliferation and Threat     monitor and measure                  Performance Goal      2011
               Reduction Programs              Nonproliferation and Threat
                                               Reduction assistance.




                                                                                                           21
Bureau/OIG                                          Primary                                           Initiate
Division             Engagement Title               Objective                      Justification     Month/Year

               Audit of Compliance With
               Secure Embassy
               Construction and               To determine whether posts in
               Counterterrorism Act of 1999   select geographical regions are                        November
M,DS/SI                                                                              Program Risk
               (SECCA) and Overseas           meeting the security requirements                        2011
               Security Policy Board          prescribed by SECCA and OSPB.
               (OSPB) Security
               Requirements


                                              To determine to what extent and
               Audit of Department of State
                                              manner the Department has
T, PM,         Actions To Address the                                                                  March
                                              achieved its goals and objectives     Program Risk
EEB/SI         Challenges of Maritime                                                                  2012
                                              in halting maritime pirate attacks
               Piracy
                                              emanating from Somalia.



               Audit of Bureau of
               Diplomatic Security            To determine DS’s progress in
M, DS,         Implementation of              implementing interoperable                                July
                                                                                     Program Risk
IRM/SI         Interoperable                  communications among strategic                            2012
               Communications at Overseas     partners at overseas posts.
               Posts




Middle East Region Operations Directorate


Iraq
Bureau/OIG                                      Primary                                              Initiate
Division              Engagement Title          Objective                          Justification    Month/Year

                 Audit of the Worldwide
                                              To determine whether the
                 Protective Services (WPS)    Department’s
Embassy          Task Order for the           administration and                                     October
Baghdad, DS,                                                                       Program Risk
                 Baghdad Embassy Security     oversight of the WPS task                               2011
AQM/MERO
                 Force (BESF)                 order for BESF has been
                                              effective.




                                                                                                         22
Bureau/OIG                                      Primary                                               Initiate
Division              Engagement Title          Objective                           Justification    Month/Year

                                              To determine whether the
                 Audit of the Department’s    Department’s management
Embassy
                 Management of Medical        of medical operations
Baghdad, NEA,                                                                                          January
                                              dedicated to supporting             Program Risk
MED,             Operations Supporting                                                                  2012
                                              personnel assigned to Iraq
AQM/MERO         Personnel Assigned to Iraq   has been effective and
                                              properly resourced.


                                              To determine whether
                                              the Department’s
Embassy          Audit of the Worldwide       administration and
                                                                                                      September
Baghdad, DS,     Protective Services (WPS)    oversight of the WPS                Program Risk
                                                                                                        2012
AQM/MERO         Kirkuk/Mosul Task Order      task order for
                                              Kirkuk/Mosul has been
                                              effective.



Afghanistan
Bureau/OIG                                           Primary                                         Initiate
Division            Engagement Title                 Objective                 Justification        Month/Year

                Audit of the Worldwide
                Protective Services (WPS)     To determine whether the
Embassy         Task Order for the Kabul      Department’s administration                              October
Kabul, DS,                                                                        Program Risk
                Embassy Security Force        and oversight of the KESF                                 2011
AQM/MERO
                (KESF)                        task order has been effective.



                                              To determine whether the
                Audit of Administration and   Bureau of International
                Oversight of Contracts To     Narcotics and Law
Embassy
                                              Enforcement Affairs has                                   April
Kabul, INL,     Construct Prisons Within                                          Program Risk
                                              effectively administered and                              2012
OBO/MERO        Afghanistan                   overseen funds expended for
                                              prison construction within
                                              Afghanistan.



                Audit of the Worldwide        To determine whether the
Embassy         Protective Services (WPS)     Department’s administration
                                                                                                      September
Kabul, DS,      Herat/Mazar-e-Sharif Task     and oversight of the                Program Risk
                                                                                                        2012
AQM/MERO        Order                         Heart/Mazar-Sharif task order
                                              has been effective.




                                                                                                           23
Pakistan
Bureau/OIG                                        Primary                                     Initiate
Division           Engagement Title               Objective                  Justification   Month/Year
                                              To determine whether the
                Audit of the Operations and   Department has effectively
Embassy         Maintenance Contract for      managed and overseen the                          October
Islamabad,                                                                    Program Risk
                Embassy Islamabad             operations and maintenance                         2012
AQM/MERO
                                              contract for Embassy
                                              Islamabad.


                                              To determine whether the
Embassy         Audit of the Administration   Department’s administration
                                                                                                 April
Islamabad,      and Oversight of Economic     and oversight of Economic       Program Risk
                                                                                                 2012
SRAP/MERO       Support Funds for Pakistan    Support Funds for Pakistan
                                              have been effective.


                                              To determine whether the
                                              Bureau of International
                                              Narcotics and Law
                Audit of the Administration
                                              Enforcement Affairs
Embassy         and Oversight of the
                                              administration and oversight                     September
Islamabad,      Pakistan National Police                                      Program Risk
                                              of the Pakistan national                            2012
INL/MERO        Training and Mentoring
                                              police training and
                Program
                                              mentoring program have
                                              been effective and achieved
                                              stated performance goals.




Other Reviews
Bureau/OIG                                         Primary                                    Initiate
Division         Engagement Title                  Objective                 Justification   Month/Year

Consulate    Audit of the Worldwide           To determine whether the
General                                       Department’s administration
             Protective Services (WPS)                                                          February
Jerusalem,                                    and oversight of the WPS        Program Risk
             Jerusalem Task Order                                                                 2012
DS,                                           task order for Jerusalem has
AQM/MERO                                      been effective.




                                                                                                    24
Bureau/OIG                                      Primary                                    Initiate
Division       Engagement Title                 Objective                 Justification   Month/Year

                                           To determine whether the
                                           Bureau of International
                                           Narcotics and Law
              Audit of Department of
                                           Enforcement Affairs
Embassy       State Administration and
                                           administration and oversight                        July
Jordan,       Oversight of the Jordanian                                   Program Risk
                                           of the Jordanian Police                             2012
INL/MERO      Police Modernization
                                           Modernization Program
              Program
                                           have been effective and
                                           achieved stated performance
                                           goals.


              Audit of Bureau of
                                           To determine what
              Diplomatic Security
                                           requirement studies and
              Management of the
                                           assessments were conducted
DS, NEA and   Worldwide Protective                                                          September
                                           by the Bureau of Diplomatic     Program Risk
SCA/MERO      Services (WPS) Contract                                                         2012
                                           Security to establish WPS
              Within Bureau s of Near
                                           protection service
              Eastern Affairs (NEA) and
                                           requirements in NEA and
              South and Central Asian
                                           SCA countries.
              Affairs (SCA) Countries




                                                                                                 25
